                   September 30, 2003

                   RUDOLPH K. UMSCHEID
                   VICE PRESIDENT, FACILITIES

                   SUBJECT:      Management Advisory – Management
                                 of Facility Lease Program
                                 (Report Number CA-MA-03-009)

                   This report presents the results of the survey phase of our
                   self-initiated review of the Facility Lease Program (Project
                   Number 03XG027CA000).

Results in Brief   Our review of 72 leases totaling over $14.1 million in annual
                   rent disclosed that the Postal Service was generally
                   initiating and renewing its leases in accordance with policies
                   and procedures. Additionally, our review of 11 leases,
                   totaling over $2.9 million in annual rent, that were
                   terminated prior to expiration disclosed no issues.
                   However, facilities service office personnel did not always
                   identify and document the condition of facilities prior to
                   lease renewal. As a result, the Postal Service does not
                   always have sufficient information available at lease
                   renewal to effectively negotiate leases or resolve
                   outstanding maintenance issues. During our review,
                   management stated this area needed attention, and began
                   drafting a facility condition checklist for facilities service
                   office personnel to use in renewing leases.

                   Management agreed with the recommendations to
                   implement procedures to use the newly created facility
                   condition checklist to identify and document the condition of
                   facilities prior to lease renewal, and communicate this
                   information to responsible facilities service office personnel.
                   Management also agreed with the recommendations to
                   enforce its requirement to identify and send the lessor a
                   letter of outstanding maintenance items when the lessor is
                   responsible for maintenance, and establish and implement
                   procedures to document outstanding maintenance items
Management of Facility Lease Program                                             CA-MA-03-009



                              prior to assuming maintenance responsibility from the
                              lessor. To address these issues, management agreed to
                              issue a policy memorandum and revise its Maintenance
                              Rider USPS Responsibility (Partial) in quarter 1, Fiscal Year
                              (FY) 2004.

 Background                   The Postal Service is one of America’s largest owners,
                              developers, and managers of real estate. The Postal
                              Service’s active facility inventory contains 28,536 leased
                              facilities with over $821 million in annual rent.

 Objective, Scope, and        The objective of the review was to determine if the
 Methodology                  procedures and internal controls for initiating and renewing
                              leases, and terminating leases prior to expiration were
                              adequate. During the review, we also gathered information
                              about the Postal Service’s Single Source Provider Program.

                              To determine the adequacy of procedures and internal
                              controls, we reviewed current Postal Service policies and
                              interviewed headquarters, facilities service office, and
                              administrative service office officials. We also contacted
                              postmasters at several leased facilities. Additionally, we
                              reviewed a judgmental sample of 72 leases worth over
                              $14,156,461 in annual rent. Our sample included new
                              leases on existing properties completed during FYs 2001
                              and 2002, new leases for properties not previously in the
                              Postal Service inventory, new leases for properties
                              previously in Postal Service inventory, leases with a
                              termination option, leases with no renewable options, and
                              active leases with an occupied date prior to January 1,
                              1980. We also judgmentally sampled 11 leases terminated
                              prior to lease expiration worth over $2,945,113 in annual
                              rent.

                              In addition, we gathered information about the Postal
                              Service’s Single Source Provider Program, and followed up
                              on facilities that came to our attention because of leasing or
                              maintenance issues.

                              This review was conducted from November 2002 through
                              September 2003 in accordance with the President’s Council
                              on Integrity and Efficiency, Quality Standards for
                              Inspections. We discussed our conclusions and
                              observations with appropriate management officials and
                              included their comments, where appropriate.


                                               2
Management of Facility Lease Program                                                    CA-MA-03-009




                                    We believe the computer-generated data was sufficiently
                                    reliable to support the opinions, conclusions, and
                                    recommendations in this report.

    Prior Audit Coverage            We did not identify any prior audits or reviews related to the
                                    objective of this audit.

    Sufficient Information          Our review of 72 leases totaling over $14.1 million in annual
    Not Always Gathered             rent disclosed the Postal Service was generally initiating
    Prior to Lease                  and renewing its leases in accordance with policies and
    Renewal                         procedures. Additionally, our review of 11 leases, totaling
                                    over $2.9 million in annual rent, that were terminated prior to
                                    expiration disclosed no issues. However, facilities service
                                    office personnel did not always identify and document the
                                    condition of facilities prior to lease renewal. As a result, the
                                    Postal Service does not always have sufficient information
                                    available at lease renewal to effectively negotiate leases or
                                    resolve outstanding maintenance issues.

                                    District administrative service office personnel are currently
                                    responsible for communicating with postmasters or
                                    installation managers about the condition of facilities.
                                    However, there are no procedures to ensure that
                                    information about the condition of facilities is communicated
                                    to facilities service office personnel responsible for renewing
                                    leases.

                                    We did not find any evidence of inquiry or documentation of
                                    any outstanding maintenance items at lease renewal as
                                    applicable in the 72 leases reviewed. In addition, Postal
                                    Service officials stated there was no requirement to inquire
                                    about the condition of the facilities prior to lease renewal.
                                    However, Postal Service policy states that the facilities
                                    service office is responsible for sending the lessor a letter
                                    to document outstanding maintenance items that exist
                                    at lease renewal for which the lessor has maintenance
                                    responsibility.1 In addition, if the Postal Service is assuming
                                    maintenance responsibility, the lessor must correct all
                                    outstanding maintenance items.2


1
    Realty Acquisition Handbook, RE-1, Section 316.3.
2
    Realty Acquisition Handbook, RE-1, Section 326.11.




                                                         3
Management of Facility Lease Program                                                                  CA-MA-03-009



                                     We were made aware of a lease renewal for a post office
                                     with outstanding maintenance items where the lessor had
                                     maintenance responsibility.3 Although the real estate
                                     specialist indicated they had contacted the postmaster prior
                                     to renewal, the lease file did not contain any evidence of
                                     inquiry or any notification informing the lessor of outstanding
                                     maintenance issues. After this issue was brought to the real
                                     estate manager’s attention, he provided written direction to
                                     the facility service office staff reminding them to determine
                                     any lessor maintenance prior to lease negotiations.

                                     We also noted a recently renewed lease for a post office
                                     where the Postal Service was assuming maintenance
                                     responsibility for the first time,4 yet no list of outstanding
                                     maintenance items had been completed prior to our inquiry.
                                     A list was subsequently prepared prior to the effective date
                                     of the renewal.

                                     Without a consistent policy to identify and document the
                                     condition of facilities prior to lease renewal, the Postal
                                     Service may not be able to effectively negotiate lease terms
                                     or resolve outstanding maintenance issues. Also, when the
                                     lessor has maintenance responsibility, knowledge of the
                                     condition of the leased facility enables the Postal Service to
                                     coordinate with the lessor to resolve maintenance issues.
                                     This reduces the risk of future safety hazards or unsafe
                                     working conditions. Furthermore, when the Postal Service
                                     assumes maintenance responsibility, knowledge of any
                                     outstanding maintenance items reduces the risk that the
                                     Postal Service may incur maintenance expenses that are
                                     the responsibility of the lessor.

                                     During our review, Postal Service management agreed that
                                     the issue of identifying and documenting the condition of
                                     facilities at renewal should be addressed. In fact, Facilities
                                     headquarters management began drafting a facility
                                     condition checklist for facilities service offices to use when
                                     renewing leases. The checklist will be used in lease
                                     negotiations and in identifying and resolving outstanding
                                     maintenance items.



3
    Franktown, Colorado. This lease was not included in the original sample universe.
4
    Freeport, Texas, Downtown Station. This lease was not included in the original sample universe.




                                                           4
Management of Facility Lease Program                                                CA-MA-03-009



                              In addition, we were advised of the implementation of the
                              Single Service Provider Program. Under this program,
                              facilities service offices will assume responsibility to
                              communicate with postmasters or installation heads
                              regarding maintenance issues. This initiative will streamline
                              communication between postmasters and facilities service
                              office personnel regarding maintenance issues.

 Recommendation               We recommend the vice president, Facilities:

                              1. Implement procedures to use the newly created facility
                                 condition checklist to identify and document the
                                 condition of facilities prior to lease renewal, including
                                 communication with personnel responsible for
                                 negotiating the lease.

 Management’s                 Management agreed with the recommendation and is
 Comments                     currently finalizing a facility condition checklist and policy
                              memo to be issued in quarter 1, FY 2004.

 Recommendation               2. Enforce the requirement to identify and send the lessor
                                 a letter of outstanding maintenance items when the
                                 lessor has maintenance responsibility.

 Management’s                 Management agreed with the recommendation.
 Comments                     Management will reemphasize this issue in the policy
                              memorandum discussed previously, to be distributed in
                              quarter 1, FY 2004.

 Recommendation                3. Establish and implement procedures to document
                                  outstanding maintenance items prior to assuming
                                  maintenance responsibility from the lessor.

 Management’s                 Management agreed with the recommendation.
 Comments                     Management stated that with the new facility condition
                              checklist, deferred maintenance will be identified prior to the
                              Postal Service taking responsibility for maintenance, and a
                              written list will be furnished to the lessor. In addition, an
                              updated Maintenance Rider will be issued in quarter 1
                              FY 2004 stating that if deferred maintenance is not
                              completed and the proper certifications are not received, the
                              lessor will remain responsible for the maintenance of the
                              building, systems, and equipment.




                                                5
Management of Facility Lease Program                                               CA-MA-03-009




 Evaluation of                Management’s comments are responsive to
 Management’s                 recommendations 1, 2, and 3. Management’s actions taken
 Comments                     or planned should correct the issues identified in the report.

                              Management provided a technical correction that we
                              incorporated into the report.

 Single Source                Postal Service management recently initiated the Single
 Provider Program             Source Provider Program. This program will consolidate
                              repair and maintenance functions previously performed by
                              district administrative service office personnel into a single
                              function within the facility service offices. This initiative is
                              designed to enhance communication regarding repairs and
                              maintenance issues. The program was fully implemented in
                              one facilities service office and is scheduled for
                              implementation at all offices over the next several years.

                              During our review, we gathered preliminary information
                              regarding the Single Source Provider Program.
                              Additionally, we identified two issues that we brought to
                              management’s attention:

                              •   A search of facilities in the Web-based database
                                  revealed facility names had been input differently by the
                                  technicians and were not always synchronized with the
                                  Facilities Management System in Windows.

                              •   Four of twenty-one postmasters and/or installation heads
                                  were unaware of the new procedure for requesting repair
                                  work under the Single Source Provider Program.

                              Management immediately took corrective action by
                              implementing a process to synchronize the database with
                              the Facilities Management System in Windows, and sending
                              additional information about the program to all postmasters
                              and installation heads.

                              We did not perform any additional tests to validate the
                              effectiveness of the Single Source Provider Program.
                              Therefore, the Office of Inspector General (OIG) does not
                              express any opinion regarding the effectiveness of the
                              program as a whole. However, we may review this program
                              in the future.


                                               6
Management of Facility Lease Program                                                                   CA-MA-03-009




    Observation                     During the course of our review, we discussed an isolated
                                    issue regarding a post office lease renewal5 without the
                                    required Postal Service Form 7437, Request for Services6
                                    with Facilities management. Although no recommendation
                                    is provided, this issue is documented here for information
                                    and future management attention as necessary.

                                    We noted there were discussions to close this post office
                                    because only one employee works at the facility for 3 hours
                                    a day, 5 days a week. Postal Service management was
                                    considering relocating to a new facility or to the existing
                                    main post office. Without documentation of the operational
                                    need, this potential change may not have been considered
                                    in the renewal of the 5-year lease expiring in 2007.
                                    Facilities management stated that because the lease had
                                    recently been renewed and no final management decision
                                    had been made, there was no action that could be taken
                                    now. However, on lease renewal they would consider this
                                    issue.

                                    We appreciate the cooperation and courtesies provided by
                                    your staff during the review. If you have any questions or
                                    need additional information, please contact Lorie Siewert,
                                    director, Contracts and Facilities, at (651) 855-5856 or me
                                    at (303) 925-7429.



                                    Colleen A. McAntee
                                    Deputy Assistant Inspector General
                                     for Financial Management

                                    Attachment

                                    cc: John A. Rapp
                                        Susan M. Duchek




5
  Freeport, Texas, Downtown Station. This lease was not included in the original sample universe.
6
  This form is used to obtain operational need and funding authorization from the district office when renewing a
lease.




                                                           7
Management of Facility Lease Program                 CA-MA-03-009



                   APPENDIX. MANAGEMENT’S COMMENTS




                                       8
Management of Facility Lease Program       CA-MA-03-009




                                       9
